<html>
<title> - [H.A.S.C. No. 114-130] Goldwater-Nichols Reform:  The Way Ahead</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                          [H.A.S.C. No. 114-130]

                       GOLDWATER-NICHOLS REFORM:

                             THE WAY AHEAD

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                              JULY 7, 2016


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

				__________
				
	                  U.S. GOVERNMENT PUBLISHING OFFICE
20-817                           WASHINGTON : 2017	                  
			
----------------------------------------------------------------------------------------- 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7413041b34170107001c1118045a171b195a">[email&#160;protected]</a>  
                              

                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            TAMMY DUCKWORTH, Illinois
JOHN FLEMING, Louisiana              SCOTT H. PETERS, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
CHRISTOPHER P. GIBSON, New York      TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             TIMOTHY J. WALZ, Minnesota
JOSEPH J. HECK, Nevada               BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama               (Vacancy)
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Ham, GEN Carter F., USA (Ret.), Former Commander, U.S. Africa 
  Command........................................................     5
Hamre, Dr. John J., Former Deputy Secretary of Defense...........     2
Zakheim, Dr. Dov, Senior Fellow, Center for Naval Analyses, 
  Senior Adviser, Center for Strategic and International Studies.     6

                                APPENDIX

Prepared Statements:

    Ham, GEN Carter F............................................    54
    Hamre, Dr. John J............................................    43
    Zakheim, Dr. Dov.............................................    57

Documents Submitted for the Record:

    Letter from retired senior military commanders...............    69

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    73
                
.                
                GOLDWATER-NICHOLS REFORM: THE WAY AHEAD

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Thursday, July 7, 2016.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Thirty years ago after five years of study and effort, the 
Congress passed the Goldwater-Nichols Reform Act. I think 
virtually everybody would agree it has been tremendously 
successful. I also think virtually everyone would agree, in 
spite of 30 years of success, it needs to be looked at again 
and reviewed because no law that we pass is successful for all 
time.
    The House has roughly a dozen provisions related to 
Goldwater-Nichols and strategic thinking and planning in the 
military; the Senate has about 20. And as we head towards 
conference, it seemed to me it was important to get some 
learned perspectives on the various proposals in our bill and 
the Senate bill and the things we need to be thinking about.
    I could not ask for a better panel of witnesses, either in 
previous jobs or in their current jobs, and to have a former 
Deputy Secretary of Defense, a former Under Secretary of 
Defense, a former combatant commander, a four-star, gives us a 
variety of perspectives and very helpful insights on the issues 
we face.
    Before turning to our witnesses, let me turn to the ranking 
member for any comments he would like to make.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I agree with your 
comments. I think this is a very appropriate time to revisit 
Goldwater-Nichols, to look at the command structure, figure 
out, you know, what is the best plan going forward. And I also 
agree that we have three outstanding witnesses to give us some 
guidance in that.
    I think the issues that I am most interested in are, number 
one, is it too top heavy the way we have it structured with the 
command structures? That is one of the complaints I know that 
the Senators have made, is that as you, you know, create all 
these commands there then comes, you know, all kinds of 
bureaucracy that comes with it, various sort of, well, I guess 
the government equivalent of middle managers. Is that 
necessary? Could we save some money by consolidating that and 
trimming that down?
    And then the second thing that I have been intrigued by is 
something General McChrystal has talked about, is the need for 
greater flexibility in terms of moving around DOD [Department 
of Defense] assets. And is the current combatant command 
structure the best way to do that?
    As a challenge arises, you want to be able to pull together 
the best team from wherever it is to confront that challenge. 
That is what General McChrystal basically did in response to Al 
Qaeda. As he said, it takes a network to defeat a network. And 
the network that was built, not just by him, but certainly by 
others, took from all across government, and not even just DOD, 
to maximize our intelligence assets and our military assets to 
confront that threat. So does the current combatant command 
structure allow for that level of flexibility?
    And then frankly something that I have, you know, always 
sort of puzzled over and don't know that well is, you know, the 
Joint Chiefs versus the SECDEF [Secretary of Defense] versus 
the combatant commanders, what is the chain of command? Who is 
in charge of what? And how do they all work together? And is 
there a way that they could work together better?
    So those are the three things that have arisen out of some 
of our discussions on our side and also in looking at what the 
Senate has done, that I hope we will hear from our witnesses 
today.
    And with that, I will yield back and I thank the chairman 
for having this very important hearing.
    The Chairman. I thank the gentleman. I think he raises 
excellent points.
    Again, let me welcome our witnesses. We are pleased to have 
Dr. John Hamre, the president and CEO [chief executive officer] 
of the Center for Strategic and International Studies [CSIS]; 
General Carter Ham who is now the president and chief executive 
officer of the Association of the United States Army; and Dr. 
Dov Zakheim who is senior adviser at CSIS and also a senior 
fellow at the CNA Corporation. I am not going to take time to 
go through all of their qualifications.
    Again, thank each of you for being here. Without objection, 
any written material you would like to provide will be made 
part of the record.
    Dr. Hamre, the floor is yours.

  STATEMENT OF DR. JOHN J. HAMRE, FORMER DEPUTY SECRETARY OF 
                            DEFENSE

    Dr. Hamre. Mr. Chairman, Mr. Smith, thank you. It is a real 
privilege to be back in front of this committee. I think I have 
testified in front of this committee over 50 times. It hasn't 
always been fun, this one is going to be a lot better than some 
of them, but I am honored that you would have me back. Thank 
you.
    If I might start with just two very brief observations and 
then I would like to comment on each of the five sections that 
you asked me to review.
    First, I would just ask you as you are looking at this 
legislation and how it changes the Department, please be 
careful. We are in war. We have got at least two wars going on. 
We have got tense operations around the world. We are going to 
have a change in the government that is coming up. And so I 
would ask you to approach this with prudence, please.
    The second thing I would say is that, unlike 30 years ago 
when I was on the staff of the Senate Armed Services Committee 
when we passed Goldwater-Nichols, at that time we had failure 
in the field. We were failing as a military organization in the 
field. That is what motivated change then. We do not have 
failure in the field today.
    We have policy failure, but it is not military failure. And 
so I think we have to be very careful to understand why we need 
to make changes now. We need to make changes now because we 
don't have enough resources to support the needs that we have. 
We have to find ways to make this organization more agile, more 
streamlined.
    And the question is, can that be the basis for a 
substantial reform agenda?
    So let me now take--there were five sections that you asked 
me to comment on.
    First, the Senate provision calls for elevating the stature 
of technology Director of Defense Research and Engineering 
[DDR&E] and diminishing the stature of the Under Secretary for 
Acquisition, Technology and Logistics [AT&L].
    Let me say, we won the Cold War not because we had a larger 
military. We won the Cold War because we had superior 
technology on our side of the battlefield.
    And the Packard Commission, when it was formed, the Packard 
Commission wanted to make the Department of Defense a better 
buyer of things. They did not intend to diminish the DDR&E, but 
they did. In effect, we decapitated the head of the innovation 
ecosystem within the Department.
    The Director of Defense Engineering and Research was the 
capstone of a system that put superior hardware into the hands 
of our soldiers. We lost that. And I will tell you right now, 
we are losing the innovation agenda between us and the Chinese 
and the Russians. We are falling behind.
    I don't think that you can turn the large organization of 
AT&L, and the numbers are between 1,500 and 2,500, I just can't 
get a good number, they will never become an innovation 
organization. They are a compliance organization.
    If we are going to restore innovation to the Department, we 
have to create a lean, superior position in the Department, the 
number-three position in the Department needs to be the chief 
innovation officer who is going to bring superior technology 
and put it in the hands of our soldiers, sailors, airmen, and 
marines going forward.
    So in this provision, I strongly support this provision.
    The second one you asked me to comment on is the provision 
in the Senate bill that would cut general officers and flag 
officers by 25 percent. You have a modest provision in your 
bill that says that you should not have four-stars as sub-
unified command officers. I think that you have approached it 
with a principle about looking at the content, and I agree with 
that.
    I do think that this is a case where I think the Department 
understands we probably have too many general officers and both 
the House and the Senate do. What we don't have is a coherent 
plan. And simply imposing a cut of 25 percent is pretty 
arbitrary given the time we are in right now.
    My personal recommendation is that you keep the 25 percent 
cut in place, but move the implementation date a year away and 
ask the Department to come back to you with a real plan on what 
it would look like. If you don't like their plan you have a 
club. But let them have a voice on how they would shape this. I 
think that would be an important improvement when you come out 
of conference.
    You asked me to comment on the provision section 941 in the 
Senate bill on cross-functional teams. And I understand the 
sincerity of the proposal. But I think it is profoundly wrong 
for the Congress to dictate the operational activities within 
the Department.
    You establish structure and you establish goals; I don't 
think it is right for the Congress to say how the Secretary of 
Defense should organize the internal activity of the 
Department. I think you ought to hold them accountable. If it 
isn't functioning well, hold them accountable.
    But to dictate the procedures, I mean, you have got to have 
this many people in the meeting, they have got to meet every 
Tuesday and they have got to have a staff, I think that is 
wrong. I don't think that is appropriate for the Congress to 
dictate to the Secretary of Defense.
    Hold him accountable, let him organize the Department the 
way it is best to accomplish those goals.
    Fourth, you asked me to comment on the provision that is in 
the Senate bill that would authorize the Chairman of the Joint 
Chiefs to do certain administrative functions, but put him in 
the chain of command.
    Here I would say, you know, this is a very important issue. 
This is an issue of almost constitutional significance. In our 
system, I mean, democracies always struggle. How do you control 
authoritarian organizations with guns? And that is what the 
Defense Department is, it is an authoritarian organization. 
There is authority and people follow the chain of command.
    The way we have handled that problem in this democracy is 
by civilian control, started by George Washington who insisted 
on civilian control.
    Civilian control is to make sure only the President, and 
the President can never escape accountability for decisions to 
go to war, and you don't put the military in the way that 
confuses that, either to give him clouded judgment or to give 
him an excuse.
    Now, the provision that the Joint Staff is recommending is 
to let them do small administrative things. And I would say 
civilian control is a toggle switch, it is on or it is off. It 
is not a rheostat; you can't dial it. You either have civilian 
control or you don't.
    Now, the issue that they say, you know, there are small 
administrative things that we should just give to the Chairman. 
For 4 years, I met every morning with the Chairman and the Vice 
Chairman and the Secretary, and I will just tell you it is not 
a problem to do those matters. Those things happen in minutes.
    So I think we are overstating the nature of the problem and 
we are understating the severity of the implications if you go 
down this road. I would strongly encourage you not to accept 
this provision.
    Finally, you asked me to comment on both the House and the 
Senate bills, past bills have provisions that would cap the 
numbers of people on the National Security Council [NSC].
    Chairman Thornberry's amendment has a different approach, 
which is to say the President can decide how big a National 
Security Council he wants, but if that National Security 
Council is more than a hundred people, it is really doing more 
operational things. Operational responsibility, the oversight 
needs to be with the Congress for that.
    OMB [Office of Management and Budget] has about 450 people 
and there are 6 members of OMB that are required for 
confirmation. The National Security Council staff today is 
about 450 and there is no oversight.
    If it is going to be an operational organization, if it is 
going to really be directing activities in the field, the 
Congress has a constitutional responsibility to oversee that 
activity, in my view.
    Now, the chairman's mark, it is somewhat arbitrary. It says 
if it is a hundred people or less we will deem that that is a 
coordination organization. If it is more than a hundred, we 
will deem that that is an operational organization. Now, the 
precise number doesn't matter, but the constitutional principle 
matters greatly.
    And I think it is exactly the right thing. It is forcing 
the debate we need to have in this country. Are we going to 
increasingly have the operations of the executive branch being 
run in the White House through the National Security Council 
staff? If that is the case, then Congress has an obligation to 
oversee that. I firmly believe that is a constitutional 
principle.
    So I would ask that you carry that into your deliberations 
with the conference. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Hamre can be found in the 
Appendix on page 43.]
    The Chairman. Thank you.
    General Ham.

 STATEMENT OF GEN CARTER F. HAM, USA (RET.), FORMER COMMANDER, 
                      U.S. AFRICA COMMAND

    General Ham. Thank, Mr. Chairman and Congressman Smith and 
members of the committee. Thanks for the opportunity to appear 
before you this morning.
    I am honored to be here with two distinguished colleagues, 
Dr. Hamre and Mr. Zakheim, both long-serving, distinguished 
public servants and both of whom have far more experience and 
expertise in the realm of the management of the United States 
military than I do, but I hope I can perhaps bring some insight 
into the operational components of this.
    I would agree, Mr. Chairman, that this is an ideal time to 
review the Goldwater-Nichols Act, a law which, in my opinion, 
has had overall significant, positive effect on the U.S. armed 
force and it has most certainly affected, frankly, my own 
personal and professional development.
    I was a captain when the law was passed, not a member of 
the Senate Armed Services Committee staff, so a pretty junior 
officer. And not long after the law was passed I was slated to 
go to the College of Naval Command and Staff in Newport. For a 
soldier, this was a very unusual thing to go to the Navy Staff 
College. And truth be told I resisted that assignment with 
great passion until finally somebody said you have your orders, 
report to Newport.
    And so just to emphasize the point, there were two other 
fellow Army majors at that time in the Naval College of Command 
and Staff, Army Majors Ray Odierno and Stan McChrystal. We were 
all in that class together. And I would say that that initial 
exposure to joint education set each of us on paths that would 
lead to multiple joint command and staff experiences and, in my 
view, none of which would have been likely absent Goldwater-
Nichols.
    As a battalion commander, we deployed to Macedonia on 
United Nations duty under the auspices of Joint Task Force 
Provide Promise. Later I attended the Air Force War College. I 
served on the joint staff at U.S. Central Command on 9/11 and 
for 2 years after that.
    As a general officer, I commanded a multinational unit in 
Iraq, had two operations positions on the Joint Staff and, as 
the chairman indicated, concluded my active service at U.S. 
Africa Command.
    Again, I suspect that my path would have been far different 
had the Congress not passed Goldwater-Nichols.
    I would agree with Dr. Hamre, and that while I agree that 
some changes are required, I would urge an element of caution. 
The old adage of measure twice, cut once I think seems about 
right to me as we consider changes to this very, very important 
law.
    And for me from an operational perspective, one of the 
measures of effectiveness ought to be, will the changes that we 
are proposing and considering to implement, will they improve 
military effectiveness, not simply be change for change sake?
    And so I look forward to your questions and I am honored to 
be here. Thanks, Mr. Chairman.
    [The prepared statement of General Ham can be found in the 
Appendix on page 54.]
    The Chairman. Thank you, sir.
    Dr. Zakheim.

 STATEMENT OF DR. DOV ZAKHEIM, SENIOR FELLOW, CENTER FOR NAVAL 
      ANALYSES, SENIOR ADVISER, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Dr. Zakheim. Thank you, Mr. Chairman, sir, and Mr. Smith, 
members of the committee, it is nice to be back to speak to you 
again.
    I tend to agree with both the previous speakers in general, 
particularly with many of the things John Hamre just said. The 
question as to why do it now is really important. We are not 
fighting the same kind of enemy that we fought when Goldwater-
Nichols was first passed. We are fighting several different 
kinds, fundamentally different kinds of enemies. We do 
everything from fighting Ebola to fighting ISIS [Islamic State 
of Iraq and Syria] to worrying about conventional threats, and 
China and Russia are not identical conventional threats.
    So when you use the terms ``agile and adaptive'' I think 
you are absolutely right. There is no other way to deal with 
this. And although John is right that we have done pretty well 
and Carter is right that we need to be careful, we should ask 
ourselves, have we done as well as we could?
    And if you really think we have done as well as we could, 
particularly over the last 15 years, then I would argue you 
don't have to change a thing.
    But if you don't have a hundred percent feeling about that, 
then you really do need to look to change. And I commend this 
committee and, frankly, the Senate Armed Services Committee as 
well for saying no, we could be doing better.
    We are bloated, there is no question about it. We are not 
only bloated in terms of headquarters, we are bloated in terms 
of total civilians, we are bloated in terms of contractors. We 
don't even know how many contractors we have.
    And therefore, when you talk, for example, about reducing 
the number of four-stars, and I would tend to agree with what 
this committee is saying, which is there are some obvious 
changes that can be made, you can have one task force commander 
and not three, four component commanders. I would argue you do 
need some numbers or some percentage. Otherwise, DOD is not 
going to do what you ask them to do.
    Do the numbers or percentages have to be as large as the 
Senate side recommends? I don't think so. I think your side is 
probably closer to the truth on that. You have got to give some 
flexibility to DOD. You can point to some obvious changes, as I 
just mentioned. But nevertheless, some target has to be there. 
If there isn't a target, they are not going to shoot at it.
    Regarding the acquisition side, I totally agree with John 
regarding the USDR&E [Under Secretary of Defense for Research 
and Engineering]. I would say this, though. We have a very 
undereducated acquisition corps. There is no mandate that every 
single person who is in the acquisition business get up to 
speed on modern technology. You can get a master's degree and 
not go to another course again and wind up being in Senior 
Executive Service [SES].
    And if you will come back and tell me, oh, yes, there is 
the Defense Acquisition University, I would ask you to take a 
look, go online and take a look at their curriculum and then 
tell me if that is adequate. And I guarantee you won't.
    So it seems to me when you have a system that created its 
own rapid acquisition system to get around itself, which is 
what DOD did, something is fundamentally wrong.
    Now, the only question that arises if you want DOD to 
really focus on innovation is, how do you reach out to the 
commercial sector? And the ways and means for doing that are 
not the ways and means we operate with right now. Profit is 
seen in a very different light by the commercial sector than by 
the bureaucracy, for example.
    We have different parts of the FAR [Federal Acquisition 
Regulation] that address these. We tend to go to the more 
conservative route, the more mechanistic route. And the more we 
do that, the more we alienate the very kinds of cutting-edge 
technologists that we would really want to work with.
    And one other thing. If you want to get somebody who is 
really going to be great, another Bill Perry as it were, then 
you better make it a lot easier for them both to get confirmed 
and then to do the same work when they leave the Department.
    The kinds of people that we really need are exactly the 
kinds of people that don't want to come. And I think we need to 
bear that in mind.
    Cross-functional teams, I think John Hamre dealt with that 
exceedingly well, and as well with the question of the NSC 
staff.
    I want to say one thing about the role of the Chairman. 
John's experience may have been what it was, but it has not 
always been clear to me that the Chairman really is a source of 
independent advice to the President. And the Chairman should 
be, to the point where if the Chairman needs to disagree with 
the Secretary of Defense, the Chairman should be able to do 
that without any repercussions at all.
    So the 4-year term for a Chairman is really important in 
that regard. If you know you are going to be turned over within 
6 months or 12 months or 18 months, you are going to be very 
cautious about what you say because it is the Secretary that 
reappoints you. If you know you have got a 4-year term, you are 
going to speak your mind in front of the President. And I think 
the Nation needs that.
    If we are going to look at headquarters staff and the Joint 
Staff in particular, we had better start looking at agencies as 
well. One of the great shell games that we have played in the 
Department is the old Doc Cook game, right? They were told to 
cut headquarters staff in OSD [Office of the Secretary of 
Defense], he created Washington Headquarters Services and 
everybody moved to WHS where they still are, by the way, and 
have grown by 70,000 civilians in the last 15 years.
    When Secretary Gates closed down JFCOM [U.S. Joint Forces 
Command], what happened? Everybody floated somewhere else, and 
not just the military folks whom you could assign to other 
things like combat positions, but all the suits like me, they 
moved as well. That is not what you want. If you are going to 
reduce, you have got to reduce vertically, not just 
horizontally. I think that is critically important.
    Let me just close with one other point, having been 
comptroller in my last job. We have a system now called PPBE 
[Planning, Programming, Budgeting, and Execution]. We added an 
E, I was the one that added the E actually for execution, but 
we don't really follow execution terribly well.
    If you want to spend your money well, you need to be able 
to review your burn rates, as they are called in the commercial 
world, on a regular basis. We do it once a year in between the 
budget itself. That is not enough. At a minimum it should be 
every 3 months. See what has come up. Look at ISIS; ISIS came 
up out of nowhere.
    You need to move your money quickly. By the way, a little 
bit of help on the reprogramming side from the Congress 
wouldn't hurt either, but you need to move your money quickly, 
you need to review where the money isn't being spent as quickly 
as possible so you can move it into those things that are 
needed to fight an ISIS which bites you all of a sudden or an 
Ebola which bites you all of a sudden.
    We need 21st century financial management as well as 21st 
century acquisition management.
    I think I have run out of time, so I will stop here and 
take your questions.
    [The prepared statement of Dr. Zakheim can be found in the 
Appendix on page 57.]
    The Chairman. Thank you all, very interesting, helpful 
comments.
    I am going to reserve my questions until later and yield to 
the ranking member.
    Mr. Smith. Just one very broad question, and this is 
something we discussed at a dinner at CSIS and had a very good 
conversation, I think, about the national security staff. But 
the question that sort of came up near the end was, you know, 
the National Security Council was created post World War II, 
and post-World War II we built basically an infrastructure for 
the national security threats that we saw at that time, 
basically to, you know, deal with the economic fallout of a, 
you know, devastated world, deal with the threat of communism.
    And we have built, you know, from the Marshall Plan to the 
NSC to all manner of different things to confront that. And I 
think we had a fairly clear idea both of the threat we were 
facing and what we were doing to respond to it.
    We are in a bit of a pickle on that at the moment in that I 
think we do have a clear understanding of the threats that we 
face. It is just that there is a lot of them. They are very, 
very different. Just, you know, to run through it, certainly 
there is terrorism in all its iterations, and then there is 
what Russia is doing, there is what China is doing, Iran, North 
Korea. And then as you mentioned there is the various things, 
like Ebola and other things, that come up that would play a 
role. And so I think you could fairly easily put out a matrix 
and say this is what we are trying to contend with.
    What you can't really do is explain how our entire foreign 
policy/national security apparatus is structured to meet that 
threat. I would say that there are two reasons for that, and I 
think the second one actually is more important. But the first 
reason is because of the sheer complexity of it.
    But the second one is we want to imagine that we have more 
money than we actually do. And also, worse than that, we keep 
hoping that at some point in the future more money will show 
up.
    Now, in 2010, Secretary Gates and the Obama administration 
did this sort of deep dive on national security strategy and 
looked out 10 years and said, yes, how much money are we going 
to have to deal with this, and built a budget around those 
threats. And those threats, A, have changed since 2010 rather 
dramatically, but B, we have a lot less money and are going to 
have a lot less money than we thought we were going to have in 
2010.
    So how would each of you sort of build a strategy so that 
we can get more out of what we have and recognizing we simply 
don't have the money frankly to meet all of those threats in 
the ways that we would like to meet them. But given that, where 
should we spend our money? What are the two or three most 
important reforms to meet that threat environment that I just 
described?
    I think you went through each of them in a very helpful 
way, but not in sort of that, you know, comprehensive picture, 
here is the strategy, here is our limited resources, here is 
where we need to spend the money.
    So I would be curious, you know, it is like 1946 all over 
again and we are rebuilding our foreign policy/national 
security apparatus, what is most important for us to do? And 
again, be realistic in terms of what our dollars are that are 
available.
    Dr. Hamre, if you want to----
    Dr. Hamre. Well, let me take just a narrow piece of it. It 
is such a broad question.
    Mr. Smith. Yes.
    Dr. Hamre. But let me take just a narrow piece. And I think 
part of it is, you know, is the structure of our regional 
combatant commanders right for today?
    And I think to step back to say, what is our grand strategy 
today? Well, our grand strategy today, because we have such a 
multiplicity of threats, our grand strategy today is to build 
up allies and partners around the world that can join us to 
create a security environment that is peaceful and deters bad 
action. That is, I think, our grand strategy, that is what we 
did after World War II in Europe. We never really pulled it 
together in Asia; we are pulling it together now in Asia.
    So I think you do need forward-placed, regional commanders. 
I think calling them combatant commanders was a mistake 
actually. We ought to change that name.
    But it is a huge advantage for us to have these officers 
forward, four-star officers forward who can engage in a very 
proactive way building alliance partnerships.
    Now, when we passed Goldwater-Nichols, we had the 
assumption at that stage that we were going to actually fight 
wars through those regional combatant commanders. We have now 
formed task forces, joint task forces and combined task forces 
and I think that there is some capacity to make some structural 
change in how the Department is organized.
    Carter Ham was a combatant commander and so I think he 
needs to be the one to speak more about this. We cannot afford 
to lose those four-stars forward. We probably can make it more 
efficient on how we resource them, their structure, and how we 
bring things together for the task forces that are under them.
    Mr. Smith. Yes. I think the most important thing you said 
there and something that we need to more clearly include in our 
national security strategy is the building of partners because 
that is the only way we confront those threats.
    Now, obviously, we were trying to build partnerships during 
the Cold War and all that, but we were still overwhelming 
dominant. That is not the case now.
    And, General Ham, actually that is a good segue to you 
because in Africa I know that, you know, that has been key. And 
you have sort of looked to the Horn of Africa where I think we 
have been reasonably successful because we have had decent 
partners and it is a sliding scale, I will grant you, but in 
Kenya and Ethiopia and Uganda to confront the threat in the 
Horn and the Arabian Peninsula.
    Whereas you look at Mali and West Africa, we haven't been 
able to find those partners to confront the narco [narcotics] 
states, to confront the terrorism, to confront the problems 
spilling out of Libya.
    So if you could talk a little bit about that piece. How 
might we restructure, for instance, you know, work better with 
the State Department, work better with USAID [U.S. Agency for 
International Development], which are component parts of 
building that partner capacity?
    General Ham. Thanks, Congressman Smith. It won't surprise 
you that having formerly sat in that seat I think there is 
value in having in the six geographic combatant commands a 
group of people who wake up every day focused exclusively on 
the United States relationship with the countries in that area 
of responsibility. I think there is a lot of goodness that 
derives from that.
    I would, though, agree that change is necessary. I will 
confess to this committee that frankly I was too timid as the 
commander of Africa Command on making adjustments and reducing 
the size of the staff and, frankly, the size of the 
headquarters budget.
    We made some modest reductions, about 5 percent each year. 
It wasn't enough, given the fiscal realities that the 
Department was facing. So I think there is change that can be 
effective in looking for opportunities where common 
capabilities can be shared more effectively and efficiently 
across combatant commands so that each combatant command 
doesn't have to have its own particular staff or command 
element that provides a certain function.
    In the development of strategy, I think we actually have a 
pretty good model, at least of military strategy. When I was 
still in active service and started with Admiral Mullen and 
Secretary Gates, continued with General Dempsey and Secretary 
Panetta, which ultimately yielded the Defense Strategic 
Guidance of 2012, that process, to me, was pretty good.
    It was led by the Office of the Under Secretary of Defense 
for Policy, as you would expect it would be, and also by the 
Joint Staff. But the service secretaries, service chiefs, 
combatant commands were all part of that process. We all had 
the opportunity to provide our input, our advice and 
recommendations up to and including a conversation with the 
Commander in Chief as the product was nearing finalization.
    But then I think there was a next step which was done 
largely out of the public view, which was very, very important 
to me. Under the Chairman's direction or General Dempsey's 
direction, we then tested that Defense Strategic Guidance 
against the threats that we envisioned present and near term. 
And we assembled the right people, the combatant commanders, 
the service chiefs and others and applied the capabilities that 
we envisioned, that were outlined in the Defense Strategic 
Guidance against known and anticipated threats.
    And that yielded for the Chairman and I think for the 
Secretary of Defense a measure that says, can we in fact 
achieve the outcomes envisioned in the Defense Strategic 
Guidance of 2012 with the means that we think will be available 
to us? And what is the level of risk?
    So it is not just the development of the strategy, it is 
how do you then evaluate the level of risk for that strategy to 
be effective.
    Lastly if I could, Mr. Smith, on the national security 
staff, my perspective is different than my colleagues', from 
two different perspectives as a combatant commander and then as 
the director for operations on the Joint Staff prior to that.
    As a combatant commander, I didn't often have direct 
interaction with the national security staff, but sometimes 
would be brought in for deputies' committees, sometimes for 
principals' committees if there was a particular matter that 
was being discussed.
    I had a lot more engagement as the director for operations 
in the Joint Staff. And I think the way that former Secretary 
Flournoy described it is the tyranny of consensus I think was a 
real challenge in that environment where there was a seemingly 
almost endless review of deputies' committees and other 
gatherings below the principals' level on the National Security 
Council trying to address the various difficulties, challenges, 
sometimes objections that would be raised by one participant or 
another in that process.
    That seemed to me to be indicative of a lack of agility, a 
lack of responsiveness. So we have got to find some mechanism, 
I think, when the information is largely known, but there is 
disagreement, how do you still advance that issue ultimately 
for decision by the President or whoever the right body may be.
    Mr. Smith. And I am sorry, I have taken up a lot of time, 
so if you have something just quickly, Dr. Zakheim, I want to 
let some other folks get in.
    Dr. Zakheim. Just very quickly then. First, I think your 
question fundamentally goes beyond the Defense Department. It 
is a real issue of national strategy.
    Mr. Smith. Right.
    Dr. Zakheim. We still haven't figured out how to relate 
Defense to State to AID to the agencies you have talked about, 
not to mention Agriculture, FBI [Federal Bureau of 
Investigation], a lot of others as well. So it starts there. 
That is where the White House is important.
    I don't agree, as General Ham said, regarding the NSC staff 
because once they get too large they begin to think they are 
operational. They never really are. They are not qualified to 
be; it is not what they are supposed to be doing. But when you 
think you are operational and you tell the operators how to 
operate, you really make a mess and I think we have seen that 
several times. And it isn't just one administration that has 
done that.
    But just very quick thoughts about what our national 
strategy might look like. I agree, allies are important. We 
ought to look at integrating them a lot more. You know, we have 
Australian deputy commanders in WESTPAC [Western Pacific], you 
know, for our own combatant command we have foreigners as part 
of our chain of command. We ought to think about how to expand 
that, how to really make them functional allies and not just 
nominal allies.
    We ought to look at also at the fact that we no longer can 
think about everything as less or included cases. We used to do 
that during the Cold War and in many ways we still implicitly 
do. There are some cases that just are not less or included. We 
need to outline those, outline all the others, and then see, 
okay, where can we take greatest risk.
    And finally, I think it is terribly important that we have 
a better sense of when we intervene and when we don't. We are 
never going to know for sure, at least let us have some 
guidance.
    Mr. Smith. Okay, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Chairman, thank you.
    And to each of you, let me echo what the chairman said 
about applauding you for your service to our country and 
thanking you for that. All three of you deserve that.
    I would like to expand a little bit on this strategy 
concept because there is a huge disconnect with even what we 
mean by the concept of strategy. When I hear people talking 
about our allies, it seems like we want to get bigger and 
bigger and broader and broader on our strategy until we get 
almost to the point like a beauty pageant where we are just 
talking about world peace and nobody can really argue with the 
strategy, but yet we don't know how to make procurement 
decisions based on it.
    So we have general after general who retired that come sit 
before us and tell us DC is now a strategy-free zone. Andy 
Marshall would sit here and testify that a lack of strategy is 
probably our biggest threat.
    At some point in time, we can't have a global strategy. We 
have to have something that this committee can look at and say 
this is our strategy, we are going to base procurement 
decisions on it.
    That 2012 defense guidance, General, that you mentioned, we 
had General Dunford testify it was based on four major faulty 
assumptions that, one, Russia was going to be cooperative; two, 
China was going to be cooperative; three, that ISIS wasn't 
going to be a problem; and four, we are going to be out of 
Afghanistan and Iraq.
    But when all of those fail, that strategic guidance fails 
and every single person, based on procurement decisions, when 
we would lift that up and say can you make procurement 
decisions based on this, those guys, they just laugh, they 
laugh at us.
    So my question is this. When we look at threats like ISIS 
and we look at the rise of China and we look at Russia, do we 
have to structure at the Pentagon? What do we need to change so 
that we can create realistic strategies that we can then 
articulate to policymakers? Because if we are articulating 
them, it is being done somewhere that I haven't found over the 
last 16 years because over and over again we are saying tell us 
that strategy.
    And then the third thing, how do we make those strategies 
so we can articulate them faster and so that we can then have 
some consistent procurement basis so that we can make the long-
term procurement decisions we need to implement those 
strategies?
    And the last part of this. I know, and I am one of these, 
we love to have this great--we decry interservice rivalry. But 
at some point in time, does interservice rivalry actually play 
a good role in helping make sure we are not getting faulty 
assumptions and we are really getting the right strategies that 
we need to have?
    So I would throw that out to all three of you for your 
thoughts.
    General Ham. I will start, sir. So my point on the 2012 
Defense Strategic Guidance was the process, I thought, was 
very, very helpful. And I think it yielded a good product. 
Indeed, the conditions changed and I think we have not adapted 
to those changed conditions.
    But again, I come back to I think that was not a bad 
process to develop it. Maybe we ought to do it more frequently 
in order to adjust as the global security environment changes.
    With regard to, I think, a body whose voice is, in my view, 
not as influential as it should be in the development of 
strategy and in the implementation of operations is the 
collective body of the Joint Chiefs. The Chairman obviously has 
a primary role and advisory role to the President, to the 
Secretary of Defense, to the National Security Council. And I 
think the Chairman individually executes that function quite 
effectively.
    In my view, the body of the Joint Chiefs, the collective 
wisdom and military judgment that is resident in that body, I 
think that could be reinforced and strengthened, not to counter 
the Chairman, but to offer to the point that you raised, that 
there are sometimes different perspectives based on service 
culture, background experiences, operational experiences.
    And so I think that, in my view, the most senior policy and 
decisionmakers would be well-served by broader, more 
substantive engagement with the body of the Joint Chiefs, not 
only the Chairman.
    Dr. Zakheim. It is a good question. And part of it is that 
we tend to forget that strategy is talking about how to apply 
means to ends. And what has been driving many of us crazy is no 
one defines the ends anymore.
    So what are the ends? Well, we know some. We don't want a 
fight at home, it is much better to be forward deployed. We 
want to work with allies, it makes a lot more sense that way.
    But there are other things as well. How do we define 
threats? Is every threat something that calls for military 
response? Are there those that don't? Now, of course, issues 
will arise that we can't predict, but in general how do we 
think about these things? We haven't defined that at all.
    What we have done instead is create mechanistic formulas 
and mechanistic papers, like the QDR [Quadrennial Defense 
Review]. So every time a budget changes we come up with a so-
called new strategy, but that doesn't really mean anything. You 
know, if you change your strategy every other year, you don't 
have a strategy at all.
    Mr. Forbes. Thank you.
    My time is expired, but I would love, Dr. Hamre, at some 
point in time to talk with you about this.
    Dr. Hamre. If I may just 1 minute just to say----
    Mr. Forbes. He is the boss.
    Dr. Hamre. I think we have a coherent strategy with China. 
We haven't articulated it very well. We are not going to let 
China push us out of Asia, and our role is to make sure that we 
are there and that everybody in Asia feels comfortable and 
wants us there. That is working and I think we have a strategy.
    I think our strategy with Russia is very clear. We are 
going to buck up NATO [North Atlantic Treaty Organization] 
again. We took our eyes off the ball, we are going to get NATO 
strong again. And we have got to ask that the Europeans do a 
better job of their own defense. It is a familiar theme.
    If we have a strategy in the Middle East, I don't know what 
it is. I can't see it. I don't know how we are designing it. 
And I think we do need to have a strategy to know what we are 
going to do going forward.
    Thank you.
    The Chairman. I will try to be a little more flexible on 
time, but I also want to get around to everybody.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman and Ranking 
Member Smith.
    I would also like to thank the witnesses for taking the 
time to be with us today and making critical decisions 
regarding the composition and the operation of our armed 
services.
    Goldwater-Nichols resulted in significant changes in the 
way our military plans, trains, and fights, and few would argue 
that these changes were generally beneficial in terms of 
operations and efficiency.
    I strongly, gentlemen, support reform that strengthens our 
Armed Forces while also allowing them to operate more 
efficiently. But I do oppose change simply for the purpose of 
change.
    Like some of my colleagues, I, too, am concerned that 
across-the-board cuts to GOs [general officers] and SESs, as 
described in the Senate NDAA [National Defense Authorization 
Act], are unwise, given that each organization and headquarters 
faces different missions, operating environments, and 
challenges.
    I am in favor of reducing staffs if they have indeed become 
bloated. But we must be sure that we aren't eliminating vital 
positions in the likely event that some of our organizations 
are truly running efficiently today.
    So I do want to thank you all for your comments. I also 
appreciate your commentary on security cooperation and building 
partner capacity.
    General Ham, I know you know this firsthand. As Ranking 
Member Smith noted, and I have appreciated your comments on the 
National Guard State Partnership Program which has unique 
capabilities to work around some of the bureaucratic challenges 
on a country-by-country basis.
    But I do have a question for Dr. Hamre. And I appreciate 
your answering very bluntly and forward your five points that 
we asked you to answer.
    Joint officer development, including JPME [Joint 
Professional Military Education], was a major part of the 
reform in 1986. Now, this was imperative given the starting 
point that we faced on the heels of the Vietnam War and other 
significant military operational failures.
    Today as a result of the past 30 years, joint operations 
are more ingrained in our leadership and officers. So given the 
military of today versus the military of back then, 1986, do 
you feel that the very specific and often cumbersome officer 
development and education requirements of Goldwater-Nichols are 
still required to ensure joint knowledge?
    Dr. Hamre. Thank you, it is a very key question. And I 
personally believe we need to do a fairly fundamental review of 
this. I am not smart enough and I haven't done that review 
personally to give you a recommendation.
    I do feel that for 30 years we have had a calorie theory of 
management, not a vitamin theory. You know, we have put more 
money on it, we have made things bigger, but we really haven't 
figured out what does it take to create a healthy organization 
and we have just let putting more money into it as being the 
answer.
    You know, we created the joint duty officer assignment 
about 10 years after DOPMA [Defense Officer Personnel 
Management Act] was passed. And Congress created DOPMA. DOPMA 
creates a fairly rigid process by which officers have to 
advance. And we put joint duty officer on top of that.
    It is now a, in my view, too constrained a system. It needs 
to be re-engineered, but it has to be re-engineered by experts 
who really know personnel management. I do not have that 
background. I am not competent to be able to give you an answer 
for that. I do think you are right to press for it.
    And I think probably this would be one of those things 
where the committee asking for, you know, a genuine commission, 
you did very well with the commission you set up to look at 
retirement and health care, that sort of thing, something like 
that again, looking at how well we are doing managing officer 
talent would be, I think, very valuable.
    Ms. Bordallo. Thank you.
    I have one final question. I am just curious, and maybe you 
don't have the answer as well. But if we implement some of 
these changes, is there a significant cost saving?
    Dr. Hamre. Well, I don't think that, you know, cutting the 
number of general officers isn't going to be a cost saving 
directly. What it is, it starts the process where we spend less 
energy friction internal to the system and more of our energy 
goes towards output. And we are going to find lots of 
opportunities to make our organization more streamlined if we 
start at the top and think how could we do things differently. 
I think there are a lot of opportunities for that.
    A little example, you know, we will have a thousand people 
managing a constellation of satellites where the private 
industry will have 10 people doing the same job. So you are not 
going to discover that until you really break open 
organizations saying, how do we do things differently?
    I think that starts with the top. That is why I would 
recommend that you seriously look at top changes.
    Ms. Bordallo. Thank you. Thank you very much to all the 
witnesses.
    And I yield back, Mr. Chairman.
    General Ham. Mr. Chairman, could I make a comment about 
JPME?
    The Chairman. Yes, sir.
    General Ham. So I think you are right, ma'am, that the 
cohort of officers serving today are much more attuned, much 
more comfortable operating in a joint environment than I was 
growing up. That is a result of what you did in the law, so we 
don't want to lose that.
    I think there is measure for some greater flexibility in 
the application of joint duty assignments. There are lots of 
examples that two officers sitting side by side doing largely 
the same function, one gets joint credit and the other doesn't. 
There are some improvements that I think could be done in that 
regard.
    I think there is merit in the proposal to reduce the 
timeline of assignments from 3 years to 2. That seems to be 
about right.
    But we don't want to lose the goodness that this cohort of 
officers have, that feel very comfortable while retaining their 
service pride and culture, but they are very comfortable in the 
joint environment. That is a good thing for the Armed Forces 
and we want to make sure we continue that.
    Ms. Bordallo. Thank you, and I yield back.
    The Chairman. Thank you.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today, and thank 
you for your service to our Nation.
    I want to focus for a moment on the downsizing of the four-
stars. I believe I think I read 41 down to 27 is being 
considered. Is that locked in stone or is that still just up 
for discussion at this point?
    Dr. Zakheim. My understanding is it is very much up for 
discussion.
    Dr. Fleming. Okay, all right, just asking. So my question 
is, just briefly because I have follow-up questions, what are 
the pros and cons? What do we give up by downsizing our number 
of four-stars?
    General Ham. So I will start. There are some modest savings 
in immediate staff of a four-star, unsurprisingly. A four-
star's immediate staff is a little bigger than a three-star, et 
cetera. But it is the downward effect of a four-star 
headquarters and then the cascading effect.
    Dr. Fleming. Right.
    General Ham. On the negative side, I think we ought to be a 
little cautious. Four-stars get access to places that sometimes 
three-stars can't.
    Dr. Fleming. Yes.
    General Ham. I am most familiar with Europe. I was the last 
four-star Army service component commander in Europe, that my 
successors have all been three-stars. It has been okay, but the 
reality is most of their counterparts are four-stars.
    Dr. Fleming. Right.
    General Ham. There are access challenges. It was tough 
sometimes for me as a four-star to have conversation with 
Russian counterparts. I know we are suspended from that right 
now.
    Dr. Fleming. Yes.
    General Ham. I have heard that the same is true with China. 
The Army for a long time had a three-star Army service 
component commander in the Pacific, difficult for that 
commander to have discussions with their Chinese counterpart, 
easier now that that Army component is a four-star.
    Dr. Fleming. Correct.
    General Ham. So there is balance.
    Dr. Fleming. Sure. Well, the reason why I bring it up is 
you may recall, and I hate to bring up bad things that happen 
in history, but Barksdale Air Force Base is the Air Force base 
now home for Global Strike Command in Louisiana. They are in 
control, of course, of nuclear missiles and nuclear bombers.
    You may recall that back around 2007, 2008 there were 
several instances that happened with nuclear weapons that were 
very unfortunate. One was the transport, unauthorized transport 
of nuclear weapons from one point to another, which actually it 
was actually found and discovered at Barksdale itself. That led 
to standing up Global Strike Command, and now there is a four-
star general in charge of that.
    And the reasons cited, among them was the fact that there 
was not a high-level general in charge of our nuclear weapons, 
which is arguably the most important tools of war that we have, 
certainly the most devastating in case of a mistake.
    One of the reasons cited for having a four-star in charge 
of Global Strike Command is to make sure that there is top-
level access to discussion and resources. So I do have a 
concern, at least when it comes to the Air Force, about, again, 
the shedding of four-stars and how that could impact our 
nuclear armament.
    So I would love to have your comments on that.
    Dr. Zakheim. Well, I would simply say that the way the 
House side has approached the issue with a smaller number of 
cuts to the four-star levels and essentially saying to the DOD 
look carefully at what is needed, so a case like the one you 
made probably would carry some weight over there.
    Dr. Fleming. Sure.
    Dr. Zakheim. Arbitrarily cutting whatever it is, 17, 
whatever the number is, probably is too far, too fast, and 
without enough thought.
    So there is a way to approach this, there is a case for 
reducing the number of four-stars. I am not entirely convinced 
that if you are a three-star you don't have any clout at all.
    Dr. Fleming. Right.
    Dr. Zakheim. Certainly that is not my experience when I was 
in the Department.
    Dr. Fleming. Sure.
    Dr. Zakheim. But nevertheless, you have got to do this with 
some care and understanding. And I think the way this 
particular committee is approaching it is about right.
    Dr. Fleming. Yes?
    Dr. Hamre. Just very briefly, I was on the Schlesinger 
Commission that reviewed that incident.
    Dr. Fleming. Yes, right.
    Dr. Hamre. My personal view is that this was a long-term 
trend. It started when the Air Force transferred the bombers 
from the Strategic Command to the Tactical Command. There was a 
four-star in charge----
    Dr. Fleming. Right.
    Mr. Hamre [continuing]. But he didn't care about the 
nuclear mission.
    Dr. Fleming. right.
    Dr. Hamre. And are there ways that you can keep the focus 
for the nuclear mission with a three-star? I think you can and 
I think the Air Force has really embraced it now, but it does 
require the chief to understand that that is his responsibility 
to make sure that that part of the mission suite is healthy.
    And I take my hat off to General Welsh. He did a great job, 
I think. I am confident that General Goldfein will do the same 
thing.
    I understand your concern. But the real cause of losing a 
focus was when we took the bombers and gave them to the 
Tactical Air Command.
    Dr. Fleming. Yes? Okay.
    General Ham. So I would just add to what Dr. Hamre said in 
his opening statement. I think to afford the Department of 
Defense the opportunity to conduct a review, maybe a little bit 
more time, extending this a year, let them come back to you and 
say here is our proposal, that makes a lot of sense to me 
rather than trying to do it in the near term.
    Dr. Fleming. Yes, okay.
    Thank you, I yield back.
    The Chairman. Thank you.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    And I would also like to thank each of you for your 
presentation and the questions that you have answered so far. 
You have really hit on, I think, the most critical, most 
fundamental aspects of what we do as Members of Congress. And 
you mentioned the separation of powers, the civilian control of 
the military.
    Dr. Zakheim, you said no one defines the ends anymore.
    General Ham, you talked about the tyranny of consensus and 
the importance that we escape that.
    All those are on my mind. And when I think about a defense 
budget of $610 billion that consumes half or more of our 
discretionary budget, I don't know if that is too much or too 
little. I don't know exactly what we are trying to achieve in 
the world and in specific areas like the Middle East, it is 
especially confusing.
    And so I know that much of what we are talking about today 
is about the executive's authority, the NSC, whether it is too 
large, whether it is operational or merely coordinating, and I 
think those are important questions and you have helped me to 
better understand that.
    But perhaps each of you could spend a little bit of time 
guiding me as a Member of Congress in terms of what we could do 
to better define these ends, to have a defined strategy towards 
which we can apply the means, use to help us make decisions on 
specific weapon systems, force levels, total budget levels.
    The themes that you have touched on could not be more 
important to the job that I am trying to do.
    So, Dr. Hamre, I will ask you to begin.
    Dr. Hamre. Thank you. I was on the committee, the Senate 
Armed Services Committee back in the 1980s, into the 1990s. I 
remember the first year that I was on the committee our bill 
was 5 pages long and our report was 96 pages long. This year, 
the Senate Armed Services Committee bill is 1,600 pages long.
    The Congress, and this is collectively, it is this 
committee, it is the Senate committee, everybody, is on the 
wrong path. You are not more powerful when you ask thousands of 
little questions. You are powerful when you focus on big 
issues.
    That used to be the historic role of the Armed Services 
Committee, focus on the big issues. What fundamentally is 
shaping the direction of the country and our national security? 
Instead, the committees have become trapped in chasing after 
thousands and thousands of little issues. And I think it has 
been to the diminishment of the committee.
    So I strongly would urge you to pull back from all of this 
mechanical stuff. I mean, the Department loves it when you do 
that, by the way, because they can throw a thousand colonels at 
you, you know, I mean, they will win.
    But when it comes to debating the big issues, the big 
issues of state and national purpose, you have the upper hand, 
but you are not playing in that court. And I would ask you to 
reconceptualize how you think about your role as a committee.
    General Ham. Sir, I would take a similar vein. We have 
talked a little bit about the development of national security 
strategy from which derives the national military strategy. And 
while this committee appropriately focuses most on the national 
military strategy and the role of the Armed Forces, it must be 
understood that that occurs in a context of a broader, you 
know, cliche phrase of whole-of-government approach that 
applies all of the instruments of national power.
    And for this committee to say how do the Armed Forces, how 
does the Nation's military capability fit into that overarching 
national security strategy, I think we probably have, in my 
view, have, in many times and many cases, overemphasized and 
focused almost exclusively on the military component and not so 
much on the other underlying and albeit important, at least 
equally if not more important other elements of national power.
    Dr. Zakheim. I would align myself with those points. I 
would also add this. You have the power of the purse. If you 
have a better understanding of the big questions the way John 
Hamre just laid them out, then you can ask, how does what the 
Department is asking you for fit in with those big questions? 
So if they want something that relates, say, to the Middle 
East, and I agree with John Hamre, we have no strategy in the 
Middle East, and you ask them, well, why should I pay for this 
if it is for the Middle East, what is it actually going to do 
for me when I don't know what you want to do, those kinds of 
questions you can and should ask.
    And one other area which is terribly important, you have 
got to do the things that DOD will not do for itself. This 
whole hearing, the whole idea of acquisition reform, Goldwater-
Nichols. Goldwater-Nichols wasn't cooked up by DOD. I was in 
DOD at the time. When John was on the Hill, I was inside the 
Department. We were bitterly opposed to it.
    So if you want and see a need for change, don't bet on DOD 
doing it for you. And that is something else you should be 
doing.
    The Chairman. I just have to say I think Dr. Hamre and Dr. 
Zakheim are exactly right on both cases. One of my goals, which 
I have completely failed at so far, is to shrink the size of 
our bill over the last 2 years. A variety of reasons, but I 
think we have got to do better at focusing on the big stuff, so 
very good questions.
    Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    As you know and you have already spoken to this, the 
question on the NSC, the National Security Council, I was 
interested in the comments that former Secretaries Gates and 
Panetta when they talked about the National Security Council's 
micromanagement of military operations.
    I am interested in hearing from all of you, but I just 
wanted to direct this first question to General Ham. From your 
perspective as a former combatant commander, how do you see 
this issue of micromanagement as Panetta and Gates have 
described?
    General Ham. As a combatant commander, ma'am, I didn't 
actually perceive it as micromanagement because, frankly, our 
engagement with the National Security Council staff was pretty 
minimal. I mean, it was occasional with me personally. If there 
was a particular contingency or matter that was being 
discussed, usually at the invitation of the Secretary of 
Defense or the Chairman, then I could have been brought in.
    My perspective as the director for operations, J-3 on the 
Joint Staff, was different. And there were the frequency and 
the level of detail that was requested by the National Security 
Council staff was beyond that which I felt was necessary for 
that body to make policy decisions and I think started a trend 
very much into operational matters.
    And so there was tension there and sometimes we would get 
guidance from the Secretary of Defense or the Chairman of the 
Joint Chiefs of Staff to say simply, you know, we are not going 
to go down that path, we are not going to provide that level of 
detail because it is too operational.
    But it was, you know, near-constant dialogue, particularly 
if there was a pending contingency operation that was being 
discussed at those levels.
    Mrs. Walorski. Yes, Dr. Zakheim, if you could kind of weigh 
in on what Dr. Hamre was talking about earlier, just your 
perspective on the Senate having a cap on members versus the 
House language which requires FOIA [Freedom of Information Act] 
and Senate confirmation, those two types of things. I am 
interested just to hear your perspective as well.
    Dr. Zakheim. Well, I personally think that the House side's 
approach is probably better in the sense that, look, if the NSC 
staff is relatively small, then it truly is an advisory staff 
and there is no need to confirm the national security adviser. 
Once it gets too big, it is operational. And John pointed out 
the size of OMB and the size of the NSC staff are roughly the 
same.
    So yes, the whole purpose of the national security adviser 
has just changed.
    I would point out something else. General Ham speaks from 
his experience. But when you were the J-3 the NSC was smaller. 
The problem with the NSC staff is that it has gone up like 
that. And frankly, when you have all these people sitting 
around, they are going to look for something to do.
    And I will never forget, sometimes we would get a call when 
Mr. Rumsfeld was my boss, you know, the White House wants X or 
somebody would tell us the White House wants X. And the 
Secretary would say, well, who in the White House? I mean, the 
White House is a big place, it has janitors, too.
    So you get this tendency, the President wants, the White 
House wants, that is the part of the problem. When you have a 
small staff that understands its function and that is working 
full tilt at that function, you are not going to have these 
sorts of problems.
    Mrs. Walorski. Dr. Hamre, you want to add anything to that?
    Dr. Hamre. Just to say that when Henry Kissinger was 
national security adviser he had 40 people on his staff. When 
Zbig Brzezinski was national security adviser he had 44 on his 
staff. There are 450 right now.
    Now, that is qualitatively a different operation. And I 
hear it from all of my friends who are, you know, CINCs 
[commanders in chief] and the Joint Staff, they are getting 
phone calls from GS-11s telling him turn ships around. I mean, 
that is not the role of the National Security Council.
    And if it is the role of the National Security Council, the 
Congress has a responsibility, a constitutional responsibility 
to oversee it. We just have to decide how we are going to go 
here.
    That is why I think the Thornberry amendment and now the 
House approach is the superior way to proceed on this.
    Dr. Zakheim. And I would just add----
    Mrs. Walorski. Sure.
    Dr. Zakheim. I would think Mr. Kissinger and Mr. Brzezinski 
were pretty good at their job with that small number of people.
    Mrs. Walorski. I appreciate it.
    I yield back, Mr. Chairman.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thank you, gentlemen. It is very insightful to hear your 
different perspectives on this.
    Dr. Zakheim, you talked about national security strategy as 
really being kind of the big-picture approach that we need to 
be looking at if we are looking at the cause and how we can 
improve the situation.
    You know, I think there is no argument that the security 
environment today is far more complex than it was during the 
Cold War, yet our national security strategies and processes 
have not necessarily evolved to reflect that reality.
    I think both the House and Senate bills have recommended 
streamlining the strategic planning within the Department by 
eliminating the QDR, replacing it with a top-down defense 
strategy, but it still does not go to the heart of the issue 
with what you raised, Dr. Zakheim, which is all of the other 
elements within the Federal Government that play an important 
role in this national security strategy so that the DOD is not 
operating kind of in a silo or in a vacuum.
    You know, I think we have seen some marginal efforts and 
attempts to do this that really have not been particularly 
successful. You know, I don't think they will happen on their 
own.
    So I would like to hear from you how we can develop or 
conduct a national security review that would accomplish that 
goal, what your recommendations would be of building this 
overall national security strategy wherein the DOD obviously 
plays a very critical role working alongside and in parallel 
with these other agencies.
    Dr. Zakheim. Since you mentioned me I will start, 
Congresswoman.
    The first thing is to recognize that DOD is not the answer 
to everything. DOD has become the default position. My favorite 
anecdote about Afghanistan was the Iowa National Guard teaching 
farmers out there to farm because the Department of Agriculture 
wasn't sending people because they didn't have to.
    National security involves a lot of agencies. And this is 
something the National Security Council staff should be doing. 
Instead of giving operational guidance that drives people like 
General Ham a little bit crazy, they should be working on a 
comprehensive national security strategy reaching out to every 
single agency that has an input, that has a part to play, and 
rethinking the role of those agencies.
    And why is it that State Department people get killed and 
people in uniform get killed and people in the intelligence 
agencies, but somebody in the Agriculture Department who needs 
to go out to Afghanistan doesn't have to go if he or she 
doesn't want to. There is something fundamentally wrong with 
that.
    We need to reconsider what we mean by national security. To 
me, that is job number one of the National Security Council 
staff.
    Ms. Gabbard. Thank you.
    General Ham. I would agree with that, ma'am, just to say it 
is much broader than the armed services and we have got to find 
a way, and I would agree with Dr. Zakheim that I think the 
national security staff is the right entity to forge the 
various elements of our government, craft a national security 
strategy from which derive all of the others.
    How do you get to that? How do you drive that? I think it 
is by asking those tough questions that Dr. Hamre said, the big 
questions rather than the specific questions. You know, what is 
it that we are trying to achieve? And then I think for this 
committee, you know, what is the military component of that 
strategy?
    But absent that broader, overarching strategy, we always 
say, I mean, uniformly everybody signs up and says there is no 
military solution to this problem or that problem or this 
campaign, but yet there is very little conversation about other 
than military solutions to those challenges.
    So again, broadening and deepening the conversation, I 
think, will be helpful.
    Ms. Gabbard. Thank you.
    Dr. Hamre. Ma'am, the reason DOD is always tasked to do 
things is because we are the only part of the government that 
can mobilize capacity beyond what we are in peacetime. You 
know, we do not buy extra policemen. You know, we make them 
work overtime when it is the 4th of July. We don't have extra 
firemen, you know, we don't have extra diplomats.
    But we do have the capacity in the Defense Department to 
fundamentally change ourselves when the President says you have 
got to do something. We can bring up reservists, we can bring 
in contractors. We know how to do that, that is why we are 
always the ones that get tasked to do it. But we are frequently 
being put in positions where we are not the best party to be 
doing it.
    This has to be something that the President makes a 
priority to get other agencies of the government to be working 
with us. So I strongly agree with my colleagues on that.
    I also feel that, you know, the Department needs to be held 
accountable to the big questions, not all the little questions. 
I mean, the little questions are mechanical, those are 
administrative. They have the responsibility to do it right, 
you need to be pressing them on the very large questions. What 
are we doing in the Middle East? What is our strategy?
    Ms. Gabbard. Yes.
    Dr. Hamre. How are we going to turn that situation around? 
It is spiraling into chaos. What are we going to do?
    I think we have a strategy in Asia, we just haven't gotten 
anybody in the administration to articulate it very clearly.
    So I think if you press, lift this debate up, lift this 
debate up so it is at the national purposes, what are we doing 
as a nation, what do we need for our people, this is why we 
asked you to serve to do those questions.
    Ms. Gabbard. Thank you.
    Thank you, very much.
    The Chairman. Mr. Smith.
    Mr. Smith. I just wanted to follow up quickly, Dr. Hamre, 
on that issue as you talk about, you know, the military does it 
because they have the bandwidth basically, whereas you would 
have an instance where USAID or Ag [Agriculture] or Justice or 
any number of different departments would be better qualified.
    At the end of the day, the reason for that is they don't 
have the money, they don't have the personnel. I don't see that 
changing. I don't see where that money is going to come from. I 
mean, the only logical place to take it from would be, well, if 
the DOD is doing something that it would prefer someone else to 
do, take the money from DOD, put it in the State Department, 
good luck with that.
    Am I wrong about that, first of all? Do you think that is a 
realistic approach to say, hey, let us move more money in 
there? But more importantly, short of that, if we can't do 
that, is there a better way to do it than we are doing it now 
within the confines of the money that we have?
    Dr. Hamre. Well, sir, I think there is no easy way to do it 
in the short term. For example, one of the reasons the Defense 
Department, we budget excess officers. You know, we have a TTHS 
[Trainees, Transients, Holdees, and Students] account where we 
buy 10 percent more officers than we need to fill all the jobs. 
But that is because some of them are in transit, some of them 
are in training. I mean, there are different reasons why. But 
you have given us the permission to do that and we bake that 
into our budget.
    The overhead account in personnel in the State Department 
is one-half of 1 percent. That is long-term disability. They 
need to have a higher percent of authorized Foreign Service 
Officers so that they have the capacity to send people off to 
training, they have the capacity to mobilize and to get people 
into a theater on short notice. Right now they have to take it 
out of resources because they don't have it.
    So honestly, it is a mechanical thing, but budgeting a 
small amount of overhead would help dramatically with this 
problem.
    Mr. Smith. Thank you.
    Thank you, Mr. Chairman.
    General Ham. Mr. Chairman, may I follow up on Mr. Smith's 
question?
    So I would agree with that and it certainly manifests 
itself in professional military education where a small number 
of civilians from various agencies across the government go to 
the National Defense University and other places. That is 
invaluable experience for them, but also for the uniformed 
officers who are in that. If we could increase that, that would 
be good.
    And lastly, as combatant commander, I really appreciated 
the so-called dual-key authorities that the Congress has given 
to the State Department and Department of Defense that you can 
go do something if both departments agree on that. That is a 
great way, again, to build the synergy between, you know, the 
State Department and Department of Defense in activities abroad 
and I found those to be very useful.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Obviously, one concern that I have, I think that the 
Congress has, is the extraordinary growth in the size of the 
bureaucracy in the Department of Defense. And now we are having 
a debate about reducing the number of four-stars. But it seems 
that the genesis or the origin and the growth is the rise of 
these combatant commands.
    And it seems that certainly some of them have a good focus. 
But it seems like in some of them they have become incredibly 
parochial as to their region. There are redundant functions 
with the State Department. So how would you state that we ought 
to look at the effectiveness of combatant commands and to what 
extent we ought to have them going forward?
    Dr. Zakheim. Well, let me try to deal with that.
    The combatant commands may have generated some additional 
civilian slots because the military end strength is what it is. 
But I don't think that is the major driver in the growth of 
civilian numbers.
    And I think what is needed is a far more careful look 
clearly with congressional legislation, otherwise it will never 
happen, at why we need as many as we have added in the last 15 
years.
    I mean, it is arguable that as we have added the 7,000 
civilians we haven't gotten particularly more efficient. If we 
had, you might not be having this hearing today. So there is 
something fundamentally wrong and it goes well beyond the 
combatant commands.
    As to the combatant commands themselves, I agree with you 
there needs to be some change. I think there should be a four-
star cyber commander, for example.
    Whether you need a NORTHCOM [U.S. Northern Command] and a 
SOUTHCOM [U.S. Southern Command] separately is something that 
needs to be looked at. Whether you need a CENTCOM [U.S. Central 
Command] and an AFRICOM [U.S. Africa Command], given that the 
locus of Islamic terror is somewhere between the two of them, 
maybe you want to rethink that.
    I think there needs to be a closer look, again going back 
to John Hamre's point, what are we trying to do in the world, 
and then, okay, what kind of commands do we need in order to do 
that. Unfortunately, that is not how the UCP works, the Unified 
Command Plan, and those aren't the questions we have been 
asking.
    General Ham. It won't surprise you, Mr. Coffman, that I 
feel pretty strongly about the value of geographic combatant 
commands. Again, as I stated earlier, I think there is great 
value in having a commander and a group of people who wake up 
every day focused on a specific region.
    I would agree, though, that they don't need to be as large 
as they are. I failed in that in my time at Africa Command. I 
should have been more aggressive at reducing the size of the 
command and I regret that. So I think there is a time to do 
that.
    But I wouldn't give up the goodness of the relationships 
that are developed between that combatant command and the 
military leaders in the area of responsibility. That is a very 
valuable component, I think, in our building partner capacity 
and reliance upon others.
    The point that the threats that we face today are no longer 
exclusively regional or transregional, some of them certainly 
are global threats, so mechanisms that allow greater agility in 
the application of force and capabilities across combatant 
command boundaries, I think those would be helpful.
    I always felt that I had a great relationship with European 
Command, Central Command, Pacific Command as we did things 
together. But frankly, it was more based on personality than it 
was on structure. So we need some structure that makes cross-
combatant-command boundaries more effective and more efficient.
    Mr. Coffman. So when we look at Goldwater-Nichols, it 
seemed that the momentum for it was looking at military 
setbacks that have occurred with the failure during the Carter 
administration of the rescue in Iran and with the failure, 
ultimate failure of the Marine Corps presence in Lebanon under 
the Reagan administration.
    I was involved in the early phases, the unfortunate failure 
in Beirut that led to the loss of, I think, 241 U.S. military 
personnel.
    So when we look at the response in Benghazi and we look at 
our structure, what have we learned? Because I was in a Marine 
amphibious unit positioned off Lebanon to evacuate the U.S. 
embassy on order. And we were there, we were positioned there 
when things were getting hot in Lebanon. What have we learned 
in terms of our inability or our inertia in terms of responding 
to a Benghazi from the standpoint of looking at our overall 
structure?
    General Ham. I obviously have some familiarity with this 
subject and have appeared before this committee on this 
subject.
    I think we have learned a lot. I think first and foremost, 
obviously, the security of U.S. diplomatic facilities is 
primarily the purview of the Department of State and host 
nations. There are some things that can be strengthened there.
    In terms of military response, I think some of the things 
that the Department of Defense has done over the past few years 
to decrease response time by establishing a Commander's In-
extremis Force dedicated to Africa which didn't exist before, 
to establish the Marine Corps Special Purpose Marine Air-Ground 
Task Force in Spain that is postured to respond more quickly, I 
think those are all very, very positive steps that have 
occurred from a tragic incident.
    Mr. Coffman. Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    It is good to see all of you here. Thank you for your 
inputs and really all your service to the country.
    I wanted to ask you if you could, you know, this is 
probably a difficult thing to do, but I know that it is 
something you have thought about a lot, could you look at an 
Iraq-type decisionmaking process today and think about what 
would be different between now and, say, 2003? And what still 
needs to change, what would need to change in statute as well 
as internally at the Department of Defense?
    Dr. Zakheim. I lived through that.
    Mrs. Davis. Right.
    Dr. Zakheim. I don't know, is the answer. And the reason I 
tell you that is that when you get to the level of the 
President and the Vice President and the Secretaries of State 
and Defense, those are decisions that are not going to be 
driven by a particular mechanism or indeed by some kind of 
structure.
    Those are the kinds of decisions that are made for a host 
of different reasons and different motives. And so as you saw 
perhaps just from what happened in Britain with Mr. Blair's 
reaction to the really sharp criticism of Britain's involvement 
in Iraq, on the one hand he was kind of penitent, but on the 
other hand he had his back up and said, no, you know, this is 
what I wanted to do. That is what Presidents do.
    I mean, ultimately, Truman was right, the buck does stop 
there. And for something like that, the buck will always stop 
there.
    General Ham. I will try, Mrs. Davis, and just say simply, 
you know, military planning we often develop plans based on 
what do we think are the most likely outcomes, most likely 
enemy or adversary reactions and then what are the most 
dangerous.
    And I think sometimes we get fascinated by the most likely 
and build all of our plans and contingencies based on what we 
anticipate will be the most likely outcome, and we are less 
prepared for the most dangerous, perhaps an unlikely outcome, 
but one that has very significant consequences. So we need to 
be prepared for that bad outcome as well as the most likely 
outcome.
    It is a reminder to all of us that when we begin military 
operations, there is not a lot of certainty as to what the 
outcome will be. And so making sure that we have the ability, 
the adaptability to recognize when conditions are changing and 
then the flexibility to modify our courses of action and our 
policies as those conditions change. I think that is probably 
one of the lessons that we have learned over the past 10 or 15 
years.
    Dr. Hamre. Representative Davis, forgive me for kind of 
doing this, but I think this is why you want to have civilian 
control. I don't think that the decisionmaking in 2003 was 
produced by the military demanding a war. I mean, you want 
absolute accountability for why things are done and it rests 
with the President, it rests with the constitutional officers 
that execute the President's directions.
    And this is why you do not want to bring in a complicating 
factor where you can blame the military for what, in essence, 
is a political decision. This was back in a time when there was 
a great deal of fear in America and we didn't really understand 
what had happened to us after 9/11. We reacted with anger and 
blind rage in many ways.
    But that was a political decision, it was not the product 
of military recommendations or the byproduct of the civilian/
military relationship. It was unequivocally a policy choice and 
I think we have to always keep it that way.
    Mrs. Davis. Well, I certainly appreciate all of your 
answers. I think part of the concern as you were talking about 
how we, you know, strategically look at capacity, capacity on 
many different levels, and part of what I know I have always 
been concerned about, I think we all were, is whether we asked 
those appropriate questions.
    What capacity do we even have for understanding the 
situational awareness, if you will, and trying to get 
underneath? You know, what really lies at the bottom of some of 
those decisions? So I appreciate that.
    Dr. Zakheim.
    Dr. Zakheim. Well, I was just going to say that is a role 
of both the Intelligence Community and the military to lay out 
as best they can what the situation looks like from their 
perspective.
    On the other hand, the decision is the President's and his 
senior people, his political people. It is a policy decision, 
John's absolutely right.
    Mrs. Davis. Right, thank you.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Hamre, I wanted to begin with you. You wrote an article 
back in March speaking about the role of the Chairman of the 
Joint Chiefs, saying specifically that they shouldn't be 
inserted into the chain of command, the role should be advisory 
so they can be more directive from that perspective rather than 
in the chain of command.
    Subsequent to that in April, Secretary Ash Carter came out 
and said that he wanted to look at ways to clarify the role and 
authority of the Chairman of the Joint Chiefs. And he also 
wanted to make sure that the Chairman maintained his 
independence within that particular realm of duties.
    Give me your perspective on where you think the Chairman 
should function in the role between the Secretary, the 
administration, and the Joint Chiefs and staff, therefore?
    Dr. Hamre. Sir, I think this is, of course, one of the most 
complicated questions. And I would say the role of the Chairman 
is probably the most complicated job in the world if you think 
about, because his job is to ensure that the President 
understands the implications of choices he or she wants to 
make, but is objective about those recommendations to the 
President and so he can't become an advocate for what comes up 
through the chain of command to the Secretary.
    His role is really to be this superior counselor to the 
President, that can give him military judgment and advice as he 
thinks about it. And I think the chairmen have actually done a 
good job of that. I think they have worked very hard at that 
because they were not invested in the recommendation that sat 
in front of the President. They certainly knew about it, they 
helped to shape it, but it was their job to give independent 
advice to the President. I think we want to preserve that.
    And I don't think we want to cloud in any sense it is the 
President's decision if he is going to put somebody in harm's 
way. It is the President's accountability to the public. We 
can't let that get confused by somehow thinking, well, the 
military were the cause of that. The military cannot be the 
cause for political decisions.
    Now, I think the issue at hand and I think the way that 
your committee dealt with it was to acknowledge the Secretary 
has a lot of delegation authorities that he could exercise. And 
that is within the prerogative of Goldwater-Nichols that was 
established and I think you are right to highlight that and to 
say, why doesn't that become an appropriate vehicle for dealing 
with what are truly administrative matters?
    But I know the political power of the Joint Staff and I 
would be very loathe to give the Joint Staff more political 
power when it ultimately is a political decision that has to be 
accountable to the electorate.
    Mr. Wittman. Thank you.
    Dr. Zakheim, I want to shift gears a little bit here. You 
spoke earlier about efficiencies within the Department of 
Defense and specifically where dollars are going. And I am very 
much concerned along the same realm, and that is that we are 
getting dollars directly to readiness. And in many situations, 
they are not getting there.
    You pointed out, I think very eloquently, that about 40 
percent of the total Pentagon budget or spending, which is 
about $240 billion out of the base budget, goes to overhead and 
support. So it doesn't get directly to the warfighter, it 
doesn't get to the things that we need to be doing, whether it 
is training, whether it is the overhead of operations and 
maintenance and modernization.
    And you have also seen, too, that since 2009 the workforce 
there in the Office of the Secretary of Defense has grown by 
more than 2,000 people or 18 percent, and the Joint Staff grew 
from 1,286 to 4,244, an increase of 240 percent.
    I think all those things are very, very significant in 
looking at that element of growth.
    Tell me this. How do we in the future reshape the direction 
of resources to make sure that we are indeed focusing that on 
rebuilding readiness? You know, the full-spectrum readiness is 
not a place where we are going to be until sometime in the 
2020s. To me, the way to short-circuit that, sans all the 
issues we deal with, sequester and those kinds of things, is to 
create efficiencies within the Pentagon.
    Give me your perspective. I know you spoke a little bit 
about it, but I wanted to get you to drill down a little bit 
more about how we get there.
    Dr. Zakheim. Well, starting with the Office of the 
Secretary and the Joint Staff, I mean, clearly you can 
legislate a ceiling for both. It has been done before. What you 
have to watch out for is another WHS or the siphoning off to 
other agencies. And unless you put in language there that says 
these people really have to go, they are not going to go. So 
that is number one.
    Number two is one of the biggest black holes in budgeting, 
and I think John Hamre will probably agree with me on this, he 
was a comptroller before he was a deputy, is base operations. 
What do we mean by base operations? There are things that we 
really need to spend money on and there are things that maybe 
we shouldn't be spending money on.
    And I think getting to the bottom of that is daunting, but 
it is very important if you are looking for the kinds of 
efficiencies that you could then turn the money over toward 
procurement and R&D [research and development] and the other 
things you are talking about.
    And finally, as I said, getting your arms around the 
contractor corps. What does it mean?
    One thing that I have suggested over the years is you put a 
2-year moratorium on anybody leaving the Department, whether 
military or civilian, before they can become a contractor that 
is doing staff augmentation, which is really the problem. 
Because what they do is they flip their badge and they go back 
to the same job, but meanwhile somebody else has replaced them 
as well and all of a sudden you have got two people doing one 
job.
    There ought to be a moratorium set on that. You ought to 
make it much, much harder for people just to flip their badges. 
Once that happens, they are going to look elsewhere and that 
will start bringing the numbers down, too.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thanks, Mr. Chairman.
    Dr. Hamre, an important role of the AT&L Under Secretary is 
serving as a milestone decision authority for major defense 
acquisition programs. So in that role, as we know, the Under 
Secretary is a key decisionmaker in the DOD in whether a 
program starts, whether it moves into development or into 
productions. So even though the fiscal year 2016 bill 
encourages AT&L to push that authority down to military 
services in more cases, the Under Secretary still retains the 
authority to serve as a milestone decision authority on 
programs.
    So the Senate has a proposal to break up the Under 
Secretary for AT&L and it is not 100 percent clear on whether 
or not the new Under Secretary for Research and Engineering 
would continue to serve in that role as the decision authority.
    So a couple of questions, do you support the Senate's idea 
of a new Under Secretary retaining this milestone decision 
authority? Or should Congress make clear in whatever language 
you need to come up with where that authority sits?
    Dr. Hamre. Sir, I think my personal view is we need to lift 
up the Director of Defense Research and Engineering to make it 
the number-three position in the building again. It once was, 
we need to put it back there again. You cannot have that be the 
number-three position and not let him have milestone 
acquisition authority. You are going to have to keep that role 
with the DDR&E.
    But we don't need a giant compliance organization 
surrounding him and that is what we have had. And I think 
putting a lot of the responsibility back to the services, which 
is what you did last year, was the right thing to do.
    This year I think it would be a mistake to try to separate 
the milestone authority and put it into another Under 
Secretary. You need to keep that with the DDR&E and I think you 
can fix that when you are in conference.
    Mr. Larsen. Mr. Zakheim.
    Dr. Zakheim. I agree with that. I think that General 
Milley, the Chief of Staff of the Army, has proposed a number 
of other things that can be devolved back to the military, 
which will, again, reduce the need for these massive staffs 
that support the current Under Secretary.
    I think the intent and the focus should be on innovation 
and technology development. That is why the suggestion that you 
change the nature of what the Under Secretary does is so 
important.
    And most of the acquisition work, leaving aside the 
milestone issue that was just discussed, belongs with an 
Assistant Secretary for Acquisition who should do that job. 
That is not where we go if we really want to innovate. That is 
where we have been. And everybody agrees we are not innovating.
    So you need to have this focus that, you know, what Harold 
Brown did when he had that job, what Bill Perry did when he had 
that job, that is what they should be doing. And if you look at 
their records and what they brought in and the records of what 
DOD has done over the last many years actually, compared to 
what is going on in the commercial sector, you will see that 
something is amiss and maybe we should go back to that original 
model.
    Mr. Larsen. Yes, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    The Senate is coming up with some interesting proposals 
regarding military structure, so I would like to focus on two 
of these proposals.
    And, Mr. Chairman, I have here a letter to start out with 
from 11 retired senior military commanders, including former 
STRATCOM [U.S. Strategic Command], PACOM [U.S. Pacific 
Command], and NORTHCOM commanders, expressing concern with 
Senate section 502 which would repeal the requirement for the 
director of the Missile Defense Agency to be a three-star 
officer as part of the imposition of an across-the-board cut to 
general officer/flag officer billets.
    The letter gives five reasons why the director of this 
critical $30 billion agency should be a three-star and not a 
lower-rank officer. So I would ask unanimous consent that this 
be entered into the record.
    The Chairman. Without objection.
    [The letter referred to can be found in the Appendix on 
page 69.]
    Mr. Lamborn. So my question for the witnesses is, given the 
importance of missile defense, do you agree that experience has 
shown that the MDA [Missile Defense Agency] should be led by a 
three-star military officer? Who would care to comment on that?
    Dr. Zakheim. I will be happy to. I was there in 1983 when 
General Abe [Abrahamson] was the first three-star officer in 
charge of what was then called SDI [Strategic Defense 
Initiative].
    There is no question in my mind that you should have a 
three-star. I don't know if my colleagues will agree with me or 
not. As long as missile defense is an important national 
defense priority, then you should have a three-star dealing 
with it. And the reason is very simple, there are tons of two-
stars.
    I know of one person who once held my job who would only 
see four-stars. I thought that was pretty outrageous myself. 
And believe me, the services that had to deal with that 
individual were not happy either.
    But there are just a lot of two-stars. And when you have an 
Under Secretary or a Secretary or Deputy Secretary, and John 
Hamre can speak for the latter, they are just not going to deal 
with a two-star the way they deal with a three-star, nor with--
would I argue, I suspect, would the Hill. I can't speak for the 
Hill, but that is my suspicion.
    As long as it is a major and priority American defense 
activity, it should be a three-star, it should be run by a 
three-star. That is my view.
    Mr. Lamborn. Any other comments?
    General Ham. Just very quickly. I think obviously missile 
defense is a vital component of an overarching strategy. The 
decision as to individual positions and officers, I think, 
ought to be part of a broader, more comprehensive review of the 
general and flag officer ranks within the Armed Forces.
    In the particular case of the Missile Defense Agency, one 
advantage of having a three-star is that that requires a 
specific nomination and confirmation process, obviously why you 
all obviously still confirm promotions to major general, it is 
more individual and tailored at the three-star level. And that 
level of scrutiny may be appropriate given the importance of 
missile defense.
    Dr. Hamre. Sir, this is the first I have learned of this 
and so I haven't had a chance to study it.
    I would just like to step back and reflect. I mean, we had 
a one-star Army general that brought together the Manhattan 
Project. You know, the man who did mobilization for armored 
combat vehicles----
    Mr. Lamborn. If you could wrap up in about 20 seconds 
because I have got a second----
    Dr. Hamre. Yes--for armored combat vehicles, he was a 
colonel.
    Mr. Lamborn. I have got a second question.
    Dr. Hamre. I mean, so all I am saying, it is the context of 
general officer structure, which is what General Ham said. I 
personally am not convinced you need to have four-stars heading 
up acquisition commands. And so I think it needs to be put in 
the scale with a thoughtful review that needs to be done by the 
Department.
    Mr. Lamborn. Okay, thank you.
    My second issue is Senate section 903 would establish an 
Assistant Secretary for Information. And this would combine 
oversight of space and cyber.
    Now, do you think it is a good idea to combine those two 
fields? And would it possibly make one of them, like space, be 
relegated to a lesser status or overseen by having that new 
position?
    Dr. Hamre. Well, if I may on this. Sir, assistant 
secretaries do not oversee four-star generals. Let me just be 
candid. I mean, so when you are talking about CYBERCOM [U.S. 
Cyber Command], you are talking about one of the biggest things 
and most important areas.
    Right now, the only position right now that you can 
adequately oversee that is the Deputy Secretary of Defense. So 
this is new to me. I personally would doubt that an Assistant 
Secretary would have the throw weight to be able to oversee the 
scale of issues that are inside those two areas.
    Mr. Lamborn. Any other comments before my time is up?
    Dr. Zakheim. No, my experience is exactly the same.
    General Ham. I would agree.
    Mr. Lamborn. Thank you very much.
    The Chairman. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    And thank you all three for being here. And I really 
appreciate, I think, just in the brief time I have been here 
the stress on a national security strategy and the idea of 
interagency cooperation, obviously that has always been a goal, 
but the three of you with the expertise you bring.
    And it might be somewhat encouraging to you, we just came, 
some of us, Colonel Gibson and Chairman Conaway who are over 
chairing an Ag Committee hearing on the intersection of 
agriculture and national security, focusing on the agri-
business development teams in Afghanistan and some of these 
things about how we can use all our smart power, exactly what 
you are talking about.
    And General Ham, I think I would start with you. Just 
recently, your successor, General Rodriguez in AFRICOM, asked 
for congressional authority to be able to move funds over to 
USAID for this very purpose. We can train and equip all we 
want, but if you have got a food-insecure population as a 
basis, we are not going to get anywhere.
    And can you explain from your perspective when you were in 
there of how that hampers you, that ability of what he was 
asking for?
    General Ham. Absolutely. I think what has happened over the 
past couple of years was that appropriately we are taking a 
broader, more current, comprehensive view of what constitutes 
security. It is not just military forces, it is food security, 
it is water security. And so it goes back to the comments 
before of a national security strategy that embraces all of 
that and how do we most appropriately bring the many tools that 
the government has to bear in these issues.
    And so the Department of Defense has capabilities, both 
personnel, other resources. Can we find ways to have the 
authority to use those resources to achieve a security 
objective that might be nontraditional, might be nonmilitary? 
So greater flexibility is most appreciated and most helpful.
    Mr. Walz. Can any of you explain the dynamics of what is 
happening here? When we were doing the NDAA, we were asked 
about this and I had that amendment. And the combatant 
commander was obviously asking for it, the folks were asking 
for it. But when we tried to put this forward, folks at DOD 
seemed to be resistant to it, which seemed so counterintuitive 
to me about did the right hand know what the left hand was 
doing.
    What do you think the dynamics of that was of what was 
going on there? Because it was a shift of money, it was 
basically taking DOD money and sending it to State, which 
apparently seemed like a major threat, but it was for the 
purpose of giving that combatant commander the exact 
flexibility you are asking about.
    General Ham. I think that is exactly the issue is obviously 
in a resource-constrained environment that, you know, one 
department is loathe to apply its resources for another 
department or another agency with some concern that there will 
be a shortfall in its own functions and, frankly, what the 
precedent might be.
    Mr. Walz. A legitimate concern, a legitimate concern.
    And I don't want to appear naive or whatever, but I think 
we need to fix this, we need to get this done. Who is the 
person can make that happen? Is that with the President's 
national security strategy and forcing this issue down? Or is 
this so institutionally siloed and ingrained that it just----
    Dr. Zakheim. It can be dealt with. First of all, and I will 
speak as somebody who actually did agree to transfer money to 
State when I was comptroller, I did it through OMB. And that is 
where you have to start looking. You know, everybody brings 
Congress because, you know, you have got the oversight 
committees and they have their own budgets, but it all starts 
with OMB. OMB is the one that allocates.
    And what they always say is, well, we can't allocate more 
to State because if we do Congress won't accept it. So there is 
an in-built excuse for not changing very much. That is number 
one. Focus on OMB, they will hate it.
    Number two, money alone is not the solution. Let me give 
you an AID example. AID has become a contracting agency. It is 
moving away from that. It is fundamentally a contracting 
agency.
    Mr. Walz. Yes.
    Dr. Zakheim. It is not what it was during, say, the Vietnam 
War. One of the things they do is that the people who are 
actually out in the field risking their lives, people in OTI 
[Office of Transition Initiatives], are not even allowed to 
become part of AID because they haven't checked the right boxes 
on the application form, all they have done is serve the 
country at the risk of their lives.
    So the nature of what AID should be should change. And that 
is not a dollar thing. That is an internal culture thing. And 
that may be something you want to discuss with your colleagues 
on the other committees.
    So it is really a combination of things and there is no one 
solution. But is there a way to solve this thing? Absolutely, 
we don't have to keep going the way we are going.
    Dr. Hamre. I would just say, sir, that the further away you 
get from Washington, the more cooperation you get across 
agencies.
    Mr. Walz. Yes.
    Dr. Hamre. If you gave authority for General Ham when he 
was AFRICOM to use some of his money and transfer it to another 
agency to help him with a job, we would get a lot of this out. 
This is not a problem. This is a Washington problem.
    I was the comptroller, Dov was the comptroller. I fought 
like hell to make sure that the State Department didn't get my 
money. You know, that is my job, that is my job for the 
Department of Defense. But in the field, these guys are looking 
for people to work with all the time.
    So I think a lot of this could be solved if we created some 
authorities for local commanders to reach out and find people 
where they can get that kind of help. We don't let them do that 
now because of the way we structure control over dollars.
    Mr. Walz. Well, I appreciate the three of you, your candid 
and refreshing remarks on this, because we have got to get this 
right.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    And I recall that there was some controversy about the 
flexibility that the commanders, say, in Iraq and Afghanistan. 
What was that, commander's something? Yeah, yeah.
    Dr. Zakheim. Oh, CERP [Commander's Emergency Response 
Program], yeah.
    The Chairman. Yeah, the CERP money. You know, and that was 
controversial because you couldn't figure out where it was 
going to go. But I am very sympathetic with what you all are 
talking about, more flexibility on the ground by the people who 
have to live there makes a lot of sense.
    This has been terrific. Let me just touch on a couple of 
things right quick.
    Dr. Hamre on the AT&L, DDR&E issue, if you keep milestone 
decision authority with DDR&E, doesn't DDR&E have to have the 
apparatus to evaluate whether a program is appropriate for the 
next milestone? In other words, doesn't it have to have the 
bureaucracy to make that decision?
    Dr. Hamre. It is going to have to have some bureaucracy to 
help make that decision. If you have an Assistant Secretary, 
AT&L that is an Assistant Secretary, most of the mechanics of 
that will be done in that office.
    And I am hoping that the reform that you put in place last 
year by moving milestone authority back to the services, by 
making the service chiefs accountable is going to lower the 
obligation to have OSD have a giant organization that is 
checking every little box.
    The Chairman. Yeah, okay. I hope so, too, but I just wanted 
to check on that.
    Dr. Zakheim said he thought extending the term of the 
Chairman of the Joint Chiefs from 2 to 4 years was a good 
thing. Do either of the other of you have an opinion on that?
    General Ham. I fully support a 4-year term for both 
Chairman and Vice Chairman. Ideally they would be offset. I am 
not sure you want to legislate that. I think you still want the 
Commander in Chief and the Secretary of Defense to have a 
degree of flexibility, but 4-year terms would be helpful.
    The Chairman. Okay.
    Dr. Hamre. Sir, I also agree. A 4-year term, I think, is a 
good thing.
    I would ask you also to look at another element inside the 
Senate bill, which precludes the Vice Chairman from ever 
becoming the Chairman. I am not sure that that is a healthy 
provision. You know, that is, in essence, taking the Vice 
Chairman and making him the least important guy on the Joint 
Chiefs. Given the role that the Vice Chairman plays, I am not 
sure that is a healthy thing to do.
    Dr. Zakheim. And can I speak in support of that point, too, 
Mr. Chairman?
    The Chairman. Yeah. I wasn't aware it was in the Senate 
bill.
    Dr. Zakheim. It is in the bill. And what you are 
essentially doing is saying to the Vice Chairman this is your 
terminal position, you are a lame duck from the first day you 
have taken this job. That is not a good thing.
    And quite frankly, if the Vice Chairman is talented enough, 
why shouldn't he or she be promoted? It is ridiculous.
    The Chairman. Okay. Lastly, I think the conversation we 
have had about broader strategy has been very helpful. I am 
going to narrow down for just a second. Do any of you have 
views about the specific QDR replacement that we have in our 
bill, which tries to, number one, have it not be so expensive 
and time-consuming and worthless, in my view, but does replace 
it with something where you start out with an outside panel and 
then come back with the Secretary's defense guidance and then 
the plans that go from that?
    Dr. Zakheim. I think it is a good idea because QDR, like 
some other things that go on in the Pentagon, if you actually 
were at one of those meetings, the walls are lined with people 
who are falling asleep or are asleep. And it becomes this 
massive group exercise not to mention the fact that the 
language is totally anodyne because, again, it is this culture 
of consensus. So it becomes a total waste of time almost from 
the time it is published, maybe even before it was published. 
So I certainly support your idea.
    Whether that goes as far as one could, I don't know, but it 
is a great start. And I would be totally behind it.
    General Ham. I would agree with that, Mr. Chairman, because 
I think a new strategic review begins with a question of trying 
to define the ends, which we have talked about here, rather 
than beginning from a conversation of the ways. It seems to be 
often begun with the ways and say what we can fit inside the 
available ways rather than having the larger conversation 
first.
    The Chairman. Okay.
    Dr. Hamre. Mr. Chairman, forgive me for not having studied 
that provision, and so I am going to make a comment in 
ignorance.
    But the reason that the QDR has become so worthless as a 
process is because you all are looking at it. I mean, they do 
not want to expose their deliberations in a way that takes the 
international deliberations and make them public. And they have 
a right of privacy to figure out what they want to do for their 
recommendations.
    I personally think the committee could have enormous impact 
if you took a select group of, say, 10 members of the 
committee, 11 members of the committee to preserve the 
majority, and say you guys write a national strategy for the 
committee and then we are going to debate it ourselves. I 
promise you, you will transform the way this town thinks 
because for the first time you are going to be looking at a 
national strategy. And then you bounce that off against the 
executive branch, it will change the nature of how you think 
what your role is.
    Your role is, I mean, you are the chairman of the board and 
this is the board for the Nation, thinking about our national 
strategy. But you are behaving like third-level program 
managers in a corporation. You are looking at all the little 
stuff. Please, I plead with you, look at big issues.
    You can't do that with a committee this big. You are going 
to have to create a special task force to try to work through 
something and say this is going to be our national strategy 
document, this is what we think the Nation is going to need for 
the next 10 years and we are going to debate it inside our 
committee.
    I think you would transform things because you also change 
the way your committee would be thinking about itself.
    The Chairman. Interesting.
    Dr. Hamre, CSIS, as you know, produced a report, I think it 
was in 1999, called ``Beyond Goldwater-Nichols.'' One of the 
key elements, to me, that stood out was the point you made very 
well that when you go to battle with the majors we are not 
asking the big questions and we inevitably lose. And so I take 
your point.
    It has been challenging for me to figure out how from the 
legislative branch we encourage or require a real strategy 
rather than this thing that the QDR has become. It is hard for 
us to make that happen.
    You know, so maybe your thought or your idea is worth 
pursuing.
    Dr. Zakheim. I would just add, Mr. Chairman, that maybe it 
is a combination of both. In other words, as long as you have 
something like the QDR it is going to be useless. So change 
that and maybe John's idea alongside it, so then you get a real 
discussion as to where we want to go as a nation.
    Dr. Hamre. There is nothing like competition. If the 
executive branch knows you are going to be writing a strategy 
and you are doing it on a bipartisan basis so that it really 
has, you are going to cause them to look at it other than this 
is just an exercise. And I thought the last national strategy 
was meaningless.
    The Chairman. Yeah. Well, we are in agreement with that. 
And I appreciate it.
    Adam, do you have something else?
    Mr. Smith. No, I guess just a comment. I think it is a very 
good idea to have our committee perhaps do that. I think, you 
know, personally I think we could replace the O&I [Oversight 
and Investigations] Subcommittee and that would be a more 
useful use of our time. We have got all kinds of oversight and 
investigations we do within this committee and, of course, with 
OGR [Oversight and Government Reform] and all over the place. 
It would, I think, be a more useful committee if we had a 
bipartisan group that tried to do that, that tried to come up 
with a strategy for us and then we could, you know, hopefully 
base our bill off of that strategy.
    But other than that, very, very helpful. Thank you very 
much. If nothing else, you educated all of us on what the 
Senate's been up to. So we appreciate that.
    [Laughter.]
    The Chairman. For better or for worse.
    Mr. Smith. Yes.
    The Chairman. I really appreciate you all's time. I told 
you we would try to finish at 12. We are done. Thank you all 
very much. It has been very helpful.
    The hearing stands adjourned.
    [Whereupon, at 11:59 a.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                              July 7, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              July 7, 2016

=======================================================================

      
     
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              July 7, 2016

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              July 7, 2016

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. The House-passed version of the NDAA includes a 
provision I offered with my friend Joe Wilson to expand talent-exchange 
authorities so that DOD employees may gain experience at private 
companies, and to bring innovative industry leaders to DOD. I believe 
we need to see more efforts like these incorporated into Department-
wide reform initiatives. In what ways can we reform Goldwater-Nichols, 
specifically to empower the workforce within the Department to improve 
strategy-making, as well as better collaborate with industry to manage 
costs, enhance capabilities, and fulfill requirements?
    Dr. Hamre. [No answer was available at the time of printing.]
    Mr. Langevin. When Goldwater-Nichols was first enacted, the 
international security environment was already demanding, and has only 
become more complex and unpredictable in recent years. As the United 
States continues to face challenges across the globe--such as ISIL in 
the Middle East, proxy warfare in Ukraine, and island-building in the 
South China Sea--and as we look to reform Goldwater-Nichols, how can we 
best frame this effort to make the Department more agile while 
retaining its strength and taking into account emerging security 
challenges?
    Dr. Hamre. [No answer was available at the time of printing.]
    Mr. Langevin. The House-passed version of the NDAA includes a 
provision I offered with my friend Joe Wilson to expand talent-exchange 
authorities so that DOD employees may gain experience at private 
companies, and to bring innovative industry leaders to DOD. I believe 
we need to see more efforts like these incorporated into Department-
wide reform initiatives. In what ways can we reform Goldwater-Nichols, 
specifically to empower the workforce within the Department to improve 
strategy-making, as well as better collaborate with industry to manage 
costs, enhance capabilities, and fulfill requirements?
    General Ham. The requirements in the law that address the 
professional development of the officers of the Armed Forces have 
yielded, in large part, a cohort of senior uniformed leaders with 
broader understanding and experience in joint service matters. That has 
been, in my opinion, a significant contributor to the increased 
operational effectiveness of the force as a whole. Similar focus on the 
professional development of the Department of Defense's senior civilian 
staff would likely result in broader understanding and experience 
across that important cohort. Given rapidly changing technologies, 
increasing opportunities for Department of Defense senior leaders to 
interact with, and learn from, private enterprises (perhaps not limited 
to industry) would be of significant benefit to the Department. A side 
effect would be to enhance the private sector's understanding of the 
Department of Defense. In order to do this, though, the Department 
would need authority, funding and manning above authorizations (much 
like the Army's Trainees, Transients, Holdees, and Students (TTHS) 
account) so that individuals detailed to opportunities with the private 
sector would not leave gaps in their parent Service or organization. 
Lastly, there may be an opportunity to leverage the vast private sector 
experience resident in the reserve components to strengthen the 
linkages between the Department and the private sector.
    Mr. Langevin. When Goldwater-Nichols was first enacted, the 
international security environment was already demanding, and has only 
become more complex and unpredictable in recent years. As the United 
States continues to face challenges across the globe--such as ISIL in 
the Middle East, proxy warfare in Ukraine, and island-building in the 
South China Sea--and as we look to reform Goldwater-Nichols, how can we 
best frame this effort to make the Department more agile while 
retaining its strength and taking into account emerging security 
challenges?
    General Ham. The complexities of the current (and envisioned 
future) strategic environment require a national decision-making 
process that is agile and responsive. This is an area that requires 
improvement. Goldwater-Nichols (rightly, in my opinion) strengthened 
the role of the Chairman of the Joint Chiefs of Staff, but, over time, 
the role of the collective Joint Chiefs of Staff seems to have been 
diminished. The body of the Joint Chiefs represents the most senior, 
most experienced military advisors of our nation. Their collective 
views, not just the view of the CJCS, ought be more prominent in 
national security decision-making. While the Combatant Commanders 
(acknowledging that I previously served as one) are ideally suited to 
plan and conduct regional activities and operations, they do not bear 
responsibilities for the long-term health and readiness of the force 
nor for the consequences that operations in one region might have in 
another region. That is why, in my view, the Joint Chiefs of Staff must 
be increasingly engaged in national security decision-making.
    Mr. Langevin. The House-passed version of the NDAA includes a 
provision I offered with my friend Joe Wilson to expand talent-exchange 
authorities so that DOD employees may gain experience at private 
companies, and to bring innovative industry leaders to DOD. I believe 
we need to see more efforts like these incorporated into Department-
wide reform initiatives. In what ways can we reform Goldwater-Nichols, 
specifically to empower the workforce within the Department to improve 
strategy-making, as well as better collaborate with industry to manage 
costs, enhance capabilities, and fulfill requirements?
    Dr. Zakheim. [No answer was available at the time of printing.]
    Mr. Langevin. When Goldwater-Nichols was first enacted, the 
international security environment was already demanding, and has only 
become more complex and unpredictable in recent years. As the United 
States continues to face challenges across the globe--such as ISIL in 
the Middle East, proxy warfare in Ukraine, and island-building in the 
South China Sea--and as we look to reform Goldwater-Nichols, how can we 
best frame this effort to make the Department more agile while 
retaining its strength and taking into account emerging security 
challenges?
    Dr. Zakheim. A major reason for the Department's inability to react 
quickly is its heavy bureaucratic structure combined with a risk-averse 
culture. There are simply too many layers in the DOD's decision-making 
and acquisition processes. To a great extent, this is due to an 
oversized civilian bureaucracy, coupled with an overly heavy military 
staff structure. Moreover, to some extent professional military 
education, and to a far greater extent continuing education for 
civilians, both fall woefully short in encouraging independent 
thinking, risk-taking and experimentation. The bureaucracy is totally 
risk-averse, and prefers pursuing well-trodden strategic and 
technological paths rather than experimenting with bold new concepts. 
As a result, there is insufficient original strategic thinking for 
coping with the complexities of today's international environment, nor 
is there a sufficiently well-educated staff to foster creative 
technological advances. Far greater efforts should be exerted to foster 
strategic thinking at senior service schools and the National Defense 
University. Military officers attending these schools should all 
``major'' in strategy; graduates should be fully conversant with 
strategic thinking. In addition, upon graduation they should have 
published at least one original piece on some aspect of future U.S. 
strategy in an increasingly complex international security environment. 
This is not to denigrate the importance of other subjects such as the 
PPBE process, but learning about process does not foster creative 
thought. Although the vast majority of flag and general officers have 
attended senior service school, this is not universally the case. For 
those officers who will later be involved in strategy development and 
formulation, senior service school should be a prerequisite for 
promotion to flag/general officer rank. Similarly, and without 
exception, civilians who are likely to play a role in the formulation 
of strategy should not accede to the Senior Executive Service unless 
they have spent a year at one of these schools. The current effort to 
realize a ``Third Offset Strategy'' bears promise. Nevertheless, it 
cannot succeed unless accompanied by a serious reduction in the many 
layers of bureaucracy, in other words, a reduction in the size of the 
civil service in particular, as well as by a fundamental change in the 
Pentagon's culture. The latter can only take place if DOD alters its 
traditional system for measuring and rewarding its officials. Military 
officers serving in the acquisition corps should not achieve general or 
flag officer rank, and civilians should not enter the Senior Executive 
Service, unless they will have completed at least two semesters either 
in a leading institute of technology. Nor, for that matter, should 
either officers or civilians be designated as program managers, at the 
O-6 or GS-15 level, unless they have pursued a similar educational 
program. In addition, risk-taking should be encouraged, not undermined, 
and officials who develop innovative ideas should be rewarded, not 
punished, for thinking ``outside the box.''

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
